                                                   SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                 Inspection of
                                        Bureau of Diplomatic Security,
                                                    Office of
                                    Investigations and Counterintelligence,
                                         Counterintelligence Division

                                           Report Number ISP-I-11-68, September 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG)
for the U.S. Department of State (Department) and the Broadcasting Board of Governors
(BBG).

PURPOSE AND SCOPE

        The Office of Inspections provides the Secretary of State, the Chairman of the BBG,
and Congress with systematic and independent evaluations of the operations of the Department
and the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented;
           and whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site
interviews; and reviewed the substance of the report and its findings and recommendations with
offices, individuals, organizations, and activities affected by this review.




                                          i
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




                                                      United States Department of State
                                                      and the Broadcasting Board of Governors

                                                      Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                          ii
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                             1
Context                                                   2
Executive Direction                                       3
Program Implementation                                    4
   Policy and Special Projects Branch                     4
   Investigations Branch                                  7
   Polygraph Unit                                        10
   Analysis Support Branch                               12
Management Controls                                      14
List of Recommendations                                  15
Informal Recommendations                                 16
Principal Officials                                      17
Abbreviations                                            18
Appendix: Critical Human Intelligence-Threat Posts       19




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Key Judgments
    •     The Bureau of Diplomatic Security, Office of Investigations and Counterintelligence,
          Counterintelligence Division (CI division) is performing well, despite a continuing
          turnover in its leadership. The division chief position needs to be a 3-year assignment to
          provide stable leadership.

    •     The current counterintelligence review criteria has worked well for personnel assigned to
          countries specified as being at critical risk of human intelligence threat. Nonetheless, in a
          changing international environment, the Bureau of Diplomatic Security (DS) needs to
          undertake a structured policy review to better reflect the current realities and new
          assignment challenges facing the Department.

    •     With the proposed creation of a consolidated vetting unit and the transfer to this unit of
          the CI division’s vetting responsibilities, DS needs to address the CI division’s residual
          role in the vetting process, as well as the impact of the consolidated vetting unit on the CI
          division’s organizational structure.

    •     The investigations branch is well staffed, after years of high turnover and vacancy rates.
          Special agents are assigned to positions at least one level above their grade, and most do
          not have counterintelligence experience. While the agents are motivated and eager to
          learn about counterintelligence, they would benefit from a structured training program.

    •     The analytical support branch runs efficiently and enjoys a strong reputation in the
          intelligence community for its analytical products. Better communication within the
          branch and adoption of standard operating procedures could further improve
          performance.

    •     The polygraph unit has expanded, as the result of a preemployment vetting program for
          foreign nationals at embassies with critical human intelligence threat environments. This
          program is essentially a waiver to published Department policy on the use of polygraphs.
          The Foreign Affairs Manual (FAM) section concerning authorized uses of polygraphs is
          almost 20 years old and should be updated to reflect current policy.



          The inspection took place in Washington, DC, between July 11 and 29, 2011.
(b) (6)




                                              1
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        The CI division functions as a unit in the DS Directorate of Domestic Operations, within
the directorate’s Office of Investigations and Counterintelligence (DS/ICI). The CI division’s
mission is to conduct counterintelligence inquiries and counterespionage investigations, in close
coordination with other government agencies. It actively participates in major espionage cases,
including most recently the exposure and arrest of long-time Cuban agent, Walter Kendall
Myers. The CI division represents DS in interagency counterintelligence, analytical, and training
and briefing activities. It is also currently responsible for the Department’s polygraph unit and its
personnel.

       The CI division has three branches:

       •   The policy and special projects branch develops, coordinates, and evaluates
           Department counterintelligence policies and regulations. It conducts
           counterintelligence security screening and evaluation of all personnel assigned to
           countries ranked as a critical human intelligence threat on the Security Environment
           Threat List, and also reviews other cases referred to the policy and special projects
           branch for counterintelligence issues. The branch’s other functions include training
           and briefings, special projects, and management support.

       •   The investigations branch conducts counterintelligence and counterespionage
           investigations in the Department. Counterespionage investigations are conducted in
           close coordination with the Federal Bureau of Investigation (FBI), which has
           jurisdiction over crimes involving threats to national security. Of particular note is the
           CI division’s role and leadership in establishing and operating counterespionage
           programs to protect sensitive Department construction projects abroad in hostile
           intelligence environments.

       •   The analysis support branch prepares the human intelligence threat level portion of
           the Security Environment Threat List. It prepares and disseminates threat
           assessments, briefing papers, and counterintelligence analytical products for senior
           DS and Department officers and the broader intelligence community. It also
           represents the Department in coordination with the Bureau of Intelligence and
           Research (INR) in intelligence interagency issues.

        The CI division’s staffing complement is 64, which includes 17 special agents, 15 Civil
Service staff members, 9 personal services contractors, and 21 third-party contract employees.
Staffing also includes two liaison officers from the FBI and the Naval Criminal Investigative
Service. Funding received for FY 2011 was $9.4 million, including $7.4 million used to fund
contracts.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
         The CI division has had a rapid succession of division chiefs and acting chiefs—as many
as 12 in the last decade. Despite the leadership flux, the division has performed in a solid, skilled
fashion. In inspection interviews, CI division staff identified the leadership turnover as a major
factor affecting (b) (5)     performance.

        The current chief has been in the job for 1 year and does not have a background in
counterintelligence, but according to his staff, he has given the CI division a direction,
coherence, and stability that have been absent in the wake of the constant changes over the years.
In personal questionnaires and in discussions with the inspectors, the CI division staff gave the
chief high marks. Members of the DS hierarchy, at all levels, are uniform in their praise for his
leadership and the job he has done in his first year. His interlocutors in other DS offices also
speak highly of their dealings with him.

        Notwithstanding the work of the current division chief in providing good leadership, he will
move on in less than a year. He is a DS special agent slated for overseas duty, and inevitably his 2-
year tour will be shortened to encompass training for his new assignment—possibly including
language training, which could mean an early departure of 2 or more months. With the CI division’s
history of early and at times precipitous transfers, it is important that DS promptly address the need
to provide stable, experienced division leadership, ending the cycle of constantly replacing division
chiefs. The OIG team is particularly concerned, given that the division needs specialized
counterintelligence skill sets. Its situation is in stark contrast to other agencies in the
counterintelligence community, whose senior personnel are long experienced in the area.

Recommendation 1: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should extend the length of tour of duty for the counterintelligence division
chief (S7550800) from 2 years to 3 years. (Action: DS, in coordination with DGHR)

Role in Interagency Counterintelligence

        Although INR is the Department’s primary representative to the intelligence community,
DS and the CI division have active supporting roles on counterintelligence issues. The CI
division chief provides backup to the DS assistant director for domestic operations; to INR on
two national counterintelligence executive committees; to the National Counter Intelligence
Policy Board; and to the National Counter Intelligence Operations Board, a board on which the
division chief often represents the Department. Interactions between the CI division and its INR
and other agency peers are good and generally constructive.




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                                          SENSITIVE BUT UNCLASSIFIED


Program Implementation
Policy and Special Projects Branch

       The policy and special projects branch’s major function is to manage the “pass through”
process for personnel assigned to critical human intelligence threat posts.

The Pass Through Process

        With policy and special projects branch as the action office, the CI division has FAM-
mandated responsibility to review all proposed assignments to all critical human intelligence
threat posts (12 FAM 263.3-2 b.). That process, labeled “pass through,” entails the Bureau of
Human Resources (HR) submitting each individual, proposed assignment to DS for a
counterintelligence suitability review. The 13 criteria for this review are spelled out in 12 FAM
263.3-2. 1 If the CI division raises an objection to the assignment, it prepares and submits a
memorandum to the director of the Diplomatic Security Service (DSS). If the DSS director
agrees, he informs the HR Office of Career Development and Assignments of the DS
recommendation not to proceed with the assignment. If an assignment is blocked, the person
involved has the right to appeal directly to the Director General (DGHR), who may either accept
the DS objection or reject it and proceed to make the assignment in question.

         The overwhelming numbers of assignments to critical human intelligence threat posts are
promptly approved. On occasion, the counterintelligence suitability review may entail extended
investigation and some subsequent resistance from the affected DS or other Department office.
According to the CI division, 433 assignments for 2011 were reviewed through July 2011, and
DS objected to only two. In 2010, out of 700 assignment reviews, DS objected to only three. For
its part, HR usually accepts the DS recommendation and cancels the few assignments in
question. It is only when a rejected officer appeals to the Director General that HR gets involved
again. The practice has been for the Director General to defer to DS. The pass through
objections, and subsequent discussions with DGHR about DS objections, are characterized by
thorough and intense review at the senior level in both bureaus.

New Challenges

         As evidenced by the very low rate of DS objections, the pass through process has not had
an impact on the orderly assignment of personnel to critical human intelligence threat posts.
However, as international alliances shift, social mores change, and the Department’s hiring
policies reflect new realities and service needs, it is time for DS to commence a structured
review of its current counterintelligence policies and criteria as they apply to the Foreign Service
assignment process. Over the past decades, the CI division has embarked on periodic updates of
the 12 FAM 263.3-2 criteria. It also has responded on an ad hoc basis to the growing number of
new variants challenging its counterintelligence review specialists—including the Department’s
efforts to hire people with language and skills relating to countries in which their family ties or


1
    See Appendix for the criteria list.
                                                       4
                                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

education/work experiences might bar them from using their skills. Also, the number of
marriages to nationals of these critical threat countries is increasing.

        The current pass through process has worked, but the CI division is viewing it as
increasingly unwieldy. DS has used a number of risk management and mitigation tactics to ease
the complications of applying the existing criteria. However, DS maintains that certain factors,
particularly foreign influence and family relationships, still expose U.S. Government personnel
to dangerous pressure or exploitation from hostile foreign intelligence services. For its part, HR
sees itself grappling with serious assignment issues emanating from the growingly diverse
service and the demands for language competent entrants. The Bureau of Consular Affairs, in
conjunction with HR, has developed a pilot project to hire proficient language speakers to work
in specific consular sections abroad, including in critical threat countries. The two bureaus are
grappling with DS about how to manage the likely inclusion of entrants with ties to a critical
threat country. In addition, there are occasional, and at times emotional, pleas from regional
bureaus and/or the officers involved, regarding DS objections to individual assignments to key
embassies.

        In view of these considerations, DS should undertake a thorough, structured review of the
counterintelligence pass through process, the 13 criteria embodied in 12 FAM 263.3-2, and
current and potential risk mitigation strategies, including limited use of polygraph examinations.
The purpose would be to provide an updated template for handling both pass through and other
cases referred to the CI division.

Recommendation 2: The Bureau of Diplomatic Security should review and update its current
pass through procedures and policies, seeking the Director General’s input on current assignment
policies and problems. (Action: DS, in coordination with DGHR)

        The CI division’s analysis support branch does not prepare an annual, critical human
intelligence threat post matrix describing country-specific threat levels. The matrix would be
briefed to DGHR and other senior HR officers. The matrix/briefing would provide the basis for a
common understanding in both bureaus on the basic threat considerations underlying DS pass
through recommendations.

Recommendation 3: The Bureau of Diplomatic Security should prepare an annual, critical
human intelligence threat post matrix for briefing the Director General. (Action: DS)

         Using the same counterintelligence criteria as for pass through, the CI division also
conducts counterintelligence reviews of case referrals from the DS Office of Personnel Security
and Suitability, as well as referrals for special projects – for example, contractors working on
sensitive overseas projects. Similarly, another important category involves assignment
restrictions for individual employees (barring assignment to specific countries); other DS offices
handle these cases, but the CI division conducts the counterintelligence review. At the time of
this report, there were 1,272 standing assignment restrictions in place on Department personnel,
family members, and contractors.



                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Proposed Consolidated Vetting Unit

        On April 26, 2011, the DSS director approved creation of the counterintelligence and
counterterrorism vetting unit (CCV) within DS/ICI. The unit will consolidate vetting activities
currently conducted by three separate DS offices, including the CI division. The CCV also will
incorporate the polygraph program unit that is now in the CI division. The Department has
approved funding for the CCV, identified office space, and approved three FS-2501 special agent
positions and one GS-14 position. The new unit is expected to be operational in FY 2012.

        Under the projected consolidation, the CI division would lose what has been a
significantly time-demanding activity that has absorbed much of the division’s energies. While
supportive of the consolidation decision, the OIG team is concerned that, in the current CCV
organizational chart and accompanying narrative, there is no explicitly defined role for the CI
division in the vetting process. The CI division has the best grasp of the situation in the critical
human intelligence threat countries and the most focused and experienced analytical support staff
on counterintelligence matters. An appropriate role for the CI division could be preserved by
formally inserting the division as the initial reviewing authority on those few cases in which
CCV identifies issues for DS senior-level decisions, objecting to or recommending against
assignments. Giving the CI division this role would leave the consolidated vetting process intact,
while assuring that counterintelligence expertise is brought to bear on those cases involving
senior decision makers.

Recommendation 4: The Bureau of Diplomatic Security should assign the counterintelligence
division an explicit role in the review of vetting issues demanding senior-level Bureau of
Diplomatic Security action. (Action: DS)

        The CI division’s loss of its polygraph unit will have only a minor impact on the division
and poses no policy or program issues. However, the transfer to CCV of its current vetting
responsibilities will force a major, internal reorganization and attendant personnel shifts, hitting
hard at the CI division’s 14-person policy and special projects branch. The counterintelligence
vetting process is the branch’s major activity, with one GS-13 position and four contractor
positions devoted to counterintelligence-related vetting. When the vetting function is transferred,
all these slots will be eliminated.

        The truncated policy and special projects branch will consist of only the branch chief,
the CI division financial manager, the security assistant receptionist, a three-contractor
training/briefing unit, and a CI division senior advisor (formally designated as a
counterintelligence specialist). One special agent currently assigned to the policy and special
projects branch primarily works on issues related to setting up the new counterintelligence and
counterterrorism vetting unit, and also has limited oversight of the polygraph unit. This work
will end when CCV has been established and the polygraph unit is transferred over to it.

Recommendation 5: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should abolish the special agent position (S6687606) in the counterintelligence
division’s policy and special projects branch when the polygraph unit is transferred to the
counterintelligence and counterterrorism vetting unit. (Action: DS, in coordination with DGHR)

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED



       More broadly, the CI division has not identified and addressed the organizational
challenges it will face with the loss of its vetting function. The OIG team informally discussed
with the CI division chief possible organizational options. It will be difficult to justify
preserving the policy and special projects branch after that unit loses its primary function and
so many staff.

Recommendation 6: The Bureau of Diplomatic Security should require the counterintelligence
division to prepare and implement a plan addressing the major organizational changes that will
result from transferring its counterintelligence vetting function to the counterintelligence and
counterterrorism vetting unit. (Action: DS)

Investigations Branch

        The investigations branch performs well and is reaching its full, authorized strength.
Personal questionnaires indicate a high level of office morale, as well as respect for the
division leadership. Despite being inexperienced in counterintelligence, DS special agents
receive praise from their FBI and Naval Criminal Investigations Service liaison contacts. The
continuity within the branch is provided by the three very experienced Civil Service-1811
series special agents. The current acting branch chief has over 20 years of experience in
counterintelligence.

         The branch is considered the backbone of the CI division and is authorized 22 special
         2
agents in both the Civil Service-1811 and Foreign Service-2501 career series. Nine Civil
Service, GS-7s, and third-party contract investigative assistants augment the branch. This
influx of personnel comes after years of high numbers of vacancies and frequent curtailments,
mainly due to the Department’s Afghanistan, Iraq, and Pakistan assignment priorities.
Incoming agents are typically at the FS-05 or FS-04 grade level and usually occupy positions
at least one grade level above their rank. They are either transferring from a DS field office or
graduating from the DS basic agent course. Most of the new agents have not had an overseas
tour and thus lack experience in embassy operations and regional security officer-associated
counterintelligence responsibilities. The Diplomatic Security Training Center provides little
instruction in counterintelligence to prepare these agents for their assignment within DS.




2
    The total maximum number of special agents authorized is 22, versus 16 in the following matrix, which is the
    average number of special agents on staff in the investigations branch between January 1, 2010 and July 31, 2011.
                                                 7
                                    SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED
(b) (5)




  Standard Operating Procedures Manual

          The CI division’s standard operating procedures manual is outdated, but the division is
  currently revising it. The manual pertaining to standard operating procedures at the other
  branches in the CI division also is obsolete.

          Informal Recommendation 1: The Bureau of Diplomatic Security should complete
          revisions to the counterintelligence division’s standard operating procedures manual and
          update any obsolete manuals for the other branches in the division.

  Interagency Liaison

          The CI division enjoys a strong relationship with the FBI. Since the FBI’s jurisdiction
  includes threats to national security, it also includes counterintelligence investigations. The FBI
  provides an agent to the CI division who is responsible for liaison with FBI headquarters, and the
  CI division has a DS agent on staff who interacts with the FBI Washington field office. Both
  relationships are regarded as extremely valuable in conducting counterintelligence investigations.
                                             8
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

The FBI liaison freely interacts with the investigators and other Department entities, and the
relationship between DS and the FBI is marked by good interaction and coordination; as the FBI
liaison noted, it should serve as a model for other agencies.

        The division conducts counterespionage investigations in close coordination with the
FBI, often combining the FBI’s far-reaching, statutory, investigative authorities with DS’s broad
overseas security authorities and presence. The FBI uses the division’s counterintelligence
information to determine whether to open a criminal investigation, with support from DS. If the
FBI chooses not to open an investigation, the CI division can open an internal investigation. As a
general rule, if a counterintelligence case involves allegations that involve FAM violations, it
remains in the purview of the CI division. If the allegations involve federal law, they normally
fall under the purview of the FBI.

        Liaison exchanges were established with the counterespionage group of the Central
Intelligence Agency. The Naval Criminal Investigations Service also has a liaison agent
embedded within the division, who is responsible for embassy Marine security guard incidents
and also serves as a conduit for other Department of Defense collateral investigative issues. As
with the FBI, the DS relationships with these entities are excellent.

Counterintelligence Support to China Construction Projects

         The division provides on-site counterintelligence support to the special projects
coordination office of the Bureau of Overseas Buildings Operations, building on lessons learned
from the construction of the new embassy in Moscow and the resulting establishment of the
Embassy Moscow compound program office. In this capacity, the division assigned a
counterintelligence agent, who provided full-time support for the construction of the new
embassy chancery in Beijing, China; he currently is supporting construction of the new consulate
building in Guangzhou. He also is the primary agent in the counterintelligence personnel security
unit,(b) (5)                       His duties include providing counterintelligence awareness
training to cleared American personnel and monitoring contact reporting.

       Future projects for which the division will provide on-site counterintelligence support
include the new annexes in Beijing and Moscow. The division’s full-time counterintelligence
support to Mission China’s regional security officer has been excellent, according to the
Department, the Center for Security Evaluation, and other U.S. agencies involved in the
construction projects. OIG personnel monitoring the China special projects program also
commented favorably on the division’s counterintelligence support.

Special Agent Tours of Duty

        Most Foreign Service special agents are assigned to the CI division for a 2-year tour, to
be followed by a first-time overseas assignment. Within that timeframe, the agent is required to
take mandatory training and undertake special assignments, such as providing VIP protection in
New York City during the annual UN General Assembly. Before the end of the agent’s tour, the
agent usually begins training for his or her overseas assignment. Those interruptions,
cumulatively, have a serious impact on the individual’s time for casework. The OIG team

                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

recognizes the demands put on DS in managing the Foreign Service assignment process.
However, the OIG team believes it would be helpful for DS to consider 3-year tours for at least
the two investigations branch special agent section heads and the branch chief, if and as current
priority demands ease.

Personnel Training

        The CI division does not require incoming personnel to complete an individual
development plan, nor does it have a formal training program for incoming agents. On occasion,
counterintelligence briefers within the division provide in-house training in hostile intelligence
threat and counterespionage. The Washington, DC, area offers a wide variety of formal training
opportunities, through both private and public entities, from which agents could benefit. It is
incumbent upon the agent and his or her supervisor or section chief to search for and schedule
counterintelligence training. While most incoming agents are eager to learn, on-the-job training
provided by the section chief and other coworkers does not necessarily prepare them adequately.
It is important for the CI division to take a proactive approach to training and take advantage of
the available counterintelligence training opportunities.

       Informal Recommendation 2: The Bureau of Diplomatic Security should develop a
       formal training program for special agents assigned to the counterintelligence division.

Polygraph Unit

Operations

        A personal services contractor with 20 years of polygraph examination experience heads
the polygraph unit of the division’s investigations branch. The unit chief reports to the
investigations branch chief. Reporting to the unit chief is a program manager and 10 polygraph
examiners, all but one of whom are employed via a third-party contractor. There are 13 examiner
staff members now on board, who will convert to personal services contract status, with a target
of 20 personal services contract positions.

        In 2004, given the threat situation in Iraq at the time, Secretary of State Colin
Powell authorized DS to conduct polygraph examinations of Iraqi local employees. From
2004 to 2007, the Department employed one contract polygraph examiner. Over the years,
the Department has incrementally increased its polygraph cadre, in response to requests for
support from other posts. Initially used exclusively in Iraq to vet local staff, polygraphs
now are used in Afghanistan for vetting and have been used on a limited basis for
counterintelligence or counterterrorism investigations in Pakistan, Yemen, Tajikistan,
Lebanon, Oman, Malta, and the United States. In total, 360 polygraph examinations were
conducted in 2009; 984 in 2010; and 1,015 in the first 7 months of 2011. (b) (5)
                                                         At least 95 percent of the
examinations are for vetting and counterintelligence or counterterrorism purposes. The
remaining 5 percent, with one or two exceptions, are conducted for operational reasons,
and for employees who will be detailed to another agency that requires polygraph
examinations. Only one or two examinations per year are conducted on American

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

employees for operational reasons. Failure rates for American employees mirror that of
other agencies that conduct similar exams,(b) (5)

         The total funding for polygraph examinations is $4.55 million. This includes $2.95
million provided by the Congressional line item for Iraq funding. It also includes $1.6 million
provided by the Bureau of South and Central Asian Affairs for polygraph vetting of local
staffs in Afghanistan and Pakistan.

Polygraph Policies

        The Department’s polygraph policy is prescribed in 12 FAM 251 and applies to all
Department employees, including Foreign Service nationals. Applicants for employment
with the Department are not required to undergo polygraph examinations for a security
clearance. Current employees are not required to undergo a periodic examination to maintain
a security clearance. 3 The policy permits polygraph examinations in limited circumstances, if
certain criteria are met in criminal investigations, personnel security investigations, and
counterintelligence investigations. Agents are prohibited from asking any individual under
investigation to submit to a polygraph examination.

        An agent must submit a request to ask an employee to undergo an examination; that
“request to request” is subject to approval first by the DS Assistant Secretary and then by the
deputy legal adviser. The Secretary has delegated final approval authority of these requests to
the Under Secretary for Management. 4 In addition, no reference to a polygraph examination,
an agent’s request that a subject be examined, the subject’s agreement (or refusal), or the
results of the examination may be included in a report of investigation or an employee’s
official personnel file. As noted earlier, the unit has conducted no more than one or two
polygraph examinations per year on American employees.

Exceptions to Policy Issues

        The Department’s polygraph policy, as stated in 12 FAM 251, was written in 1994. The
policy has undergone significant revisions (multiple waivers granted by Secretary Powell,
Secretary Rice, and Secretary Clinton for those posts with critical human intelligence threat
issues), but the FAM does not reflect those revisions, and it is not clear whether the policy
applies to contractors. In 2009, DS proposed a change to the policy to allow broader usage of
polygraphs, but the Office of the Legal Adviser’s front office never acted on the suggestion.

Recommendation 7: The Bureau of Diplomatic Security, in coordination with the Office of the
Legal Adviser, should review and update the Department’s polygraph examination policy,
incorporate the previously proposed changes, and update the Foreign Affairs Manual concerning
the use of polygraph examinations. (Action: DS, in coordination with L)

3
    Department employees may be required to undergo polygraph examination in order to be detailed to another
    agency that requires the examinations as a condition of employment.
4
    An employee under investigation may offer to take a polygraph examination for exculpatory purposes. Approval
    to conduct the exam still is subject to the same approval process, however, and DS cannot offer to the subject of
    an investigation a polygraph exam for exculpatory purposes. The request must originate with the
    employee/subject.
                                                 11
                                     SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Analysis Support Branch

         The analysis support branch serves three primary functions: managing the human
intelligence threat level portion of the Security Environment Threat List; preparing and
disseminating threat assessments, briefing papers, and special counterintelligence analytical
products for senior bureau and Department officials and members of the wider intelligence
community; and providing country-specific threat briefings to all Department employees traveling
to critical threat countries on either official duty or personal travel. In addition, the branch oversees
the counterintelligence working group program within DS, to include monitoring compliance,
responding to post inquiries, providing analysis support to ongoing counterintelligence
investigations, and liaising with other agencies and members of the intelligence community. Also,
the branch chief currently is covering a gap in the DS liaison to INR, which is a position normally
assigned to a DS special agent.

         The analysis support branch meets all these requirements and receives unanimous praise
from representatives of other government agencies for the quality of its analytic work. One
intelligence professional stated that, despite its small staff, the analysis support branch
contributes high quality analytic products to the intelligence community. The branch’s analysts
bring significant experience from either other intelligence agencies or the military intelligence
field, so they are able to perform their duties with little supervision. Representatives of the
intelligence agencies also commended the branch on its professionalism and effective
communication with other agencies.

       The branch chief, who has been in the position for 2 years, served as an analyst in the
branch for 14 years prior to moving to his present position. The branch chief has the respect of
both his supervisors and employees. However, the analysts described the work environment as
segmented and noted a lack of communication; staying informed is difficult. The OIG team
counseled the section chief on how to improve communication.

       Informal Recommendation 3: The Bureau of Diplomatic Security should require the
       counterintelligence division’s analysis support branch to schedule monthly staff
       meetings.

        The CI division is in the process of updating the standard operating procedures for its
respective branches, but in the analysis support branch, there are no standard operating
procedures in place for the analysts’ duties or for the format of their products. Analysts must
develop their own contacts, both within the division and with their counterintelligence colleagues
at other intelligence agencies. They also must develop their own procedures for researching
information on available resources, as well as for the format and content of their products.

       Informal Recommendation 4: The Bureau of Diplomatic Security should require the
       counterintelligence division’s analysis support branch to develop standard operating
       procedures for analysts’ duties, including formatting products and conducting research.

       The OIG team also found some disparity in the amount of official training each analyst
receives. The Foreign Service Institute does not offer many intelligence-related courses, so the

                                           12
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

analysts must create their own training curriculum. Most of the analysts said they arranged their
own training by researching what training other intelligence agencies offered and requesting the
training through official channels. Those analysts familiar with methods of finding outside
training opportunities were satisfied with the amount of training they received and stated that the
branch and division chiefs were supportive. The analysts who did not know where to look for
training opportunities complained about the lack of training provided by the branch.

       Informal Recommendation 5: The Bureau of Diplomatic Security should develop a
       standard training curriculum for the counterintelligence division’s analysis support
       branch.




                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
Division Files

        The OIG team found that some official correspondence, records, and documents were
missing from the investigative case files. The investigations branch has started its own review of
closed files dating back 5 years, to make sure that files include proper documentation. Some
policy and special projects branch backup files also were poorly organized, making information
retrieval difficult. The CI division chief acknowledged that more emphasis should be placed on
record keeping. He is considering establishing a librarian position to assist with record keeping;
the OIG team agreed with this idea.

Program Management

        Three contractors handle administrative support requests generated by the CI division
staff. They effectively interface with the DS executive and domestic directorates that are
primarily responsible for providing administrative support services to DS program offices. These
directorates provide adequate support. There were no managerial, administrative, or support
issues of concern.

        The CI division has adequate management controls in place. The OIG team reviewed
property management controls over office supplies and equipment, computers, and motor
vehicles. The CI division works in coordination with the DS executive directorate, which is
primarily responsible for DS-wide management controls. In 2010, the CI division’s personal
property was valued at $507,000. Inventory shortages were low, at 0.16 percent. The division
uses six General Services Administration-leased vehicles in its operation, of which three are on
loan from another office.

Contracting Management

        Overall, contract administration is good. The CI division uses the support services of 30
contractor employees in its operations. For FY 2011, total contract costs were about $7.4 million.
The ratio of U.S. direct-hire to contract employees is nearly one-to-one. The OIG team found no
major problems or incidents of contractors engaging in de facto supervision of direct-hire
employees, or in appearing to speak for the U.S. Government or engaging in other inherently
governmental functions.




                                          14
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should extend the length of tour of duty for the counterintelligence division
chief (S7550800) from 2 years to 3 years. (Action: DS, in coordination with DGHR)

Recommendation 2: The Bureau of Diplomatic Security should review and update its current
pass through procedures and policies, seeking the Director General’s input on current assignment
policies and problems. (Action: DS, in coordination with DGHR)

Recommendation 3: The Bureau of Diplomatic Security should prepare an annual, critical
human intelligence threat post matrix for briefing the Director General. (Action: DS)

Recommendation 4: The Bureau of Diplomatic Security should assign the counterintelligence
division an explicit role in the review of vetting issues demanding senior-level Bureau of
Diplomatic Security action. (Action: DS)

Recommendation 5: The Bureau of Diplomatic Security, in coordination with the Bureau of
Human Resources, should abolish the special agent position (S6687606) in the
counterintelligence division’s policy and special projects branch when the polygraph unit is
transferred to the counterintelligence and counterterrorism vetting unit. (Action: DS, in
coordination with DGHR)

Recommendation 6: The Bureau of Diplomatic Security should require the counterintelligence
division to prepare and implement a plan addressing the major organizational changes that will
result from transferring its counterintelligence vetting function to the counterintelligence and
counterterrorism vetting unit. (Action: DS)

Recommendation 7: The Bureau of Diplomatic Security, in coordination with the Office of
the Legal Adviser, should review and update the Department’s polygraph examination policy,
incorporate the previously proposed changes, and update the Foreign Affairs Manual concerning
the use of polygraph examinations. (Action: DS, in coordination with L)




                                         15
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
       Informal recommendations cover operational matters not requiring action by organizations
outside the inspected unit and/or the parent regional bureau. Informal recommendations will not
be subject to the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations.

Informal Recommendation 1: The Bureau of Diplomatic Security should complete revisions
to the counterintelligence division’s standard operating procedures manual and update any
obsolete manuals for the other branches in the division.

Informal Recommendation 2: The Bureau of Diplomatic Security should develop a formal
training program for special agents assigned to the counterintelligence division.

Informal Recommendation 3: The Bureau of Diplomatic Security should require the
counterintelligence division’s analysis support branch to schedule monthly staff meetings.

Informal Recommendation 4: The Bureau of Diplomatic Security should require the
counterintelligence division’s analysis support branch to develop standard operating procedures
for analysts’ duties, including formatting products and conducting research.

Informal Recommendation 5: The Bureau of Diplomatic Security should develop a standard
training curriculum for the counterintelligence division’s analysis support branch.




                                         16
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




Principal Officials
Officer                                 Name
Assistant Secretary                     Eric Boswell
Principal Deputy Assistant
Secretary                               Jeffrey Culver
Assistant Director, Office of
Domestic Operations                     Barry Moore
Director, Office of Investigations
and Counterintelligence                 Douglas Quiram
Director, Counterintelligence
Division                                Russell Humberstad




                                          17
                              SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG             Broadcasting Board of Governors
CCV             Counterintelligence and Counterterrorism Vetting Unit
CI division     Bureau of Diplomatic Security, Office of Investigations and
                Counterintelligence, Counterintelligence Division
Department      Department of State
DGHR            Director General of the Foreign Service and Director of Human
                Resources
DS              Bureau of Diplomatic Security
DS/ICI          Bureau of Diplomatic Security, Directorate of Domestic
                Operations, Office of Investigations and Counterintelligence
DSS             Diplomatic Security Service
FAM             Foreign Affairs Manual
FBI             Federal Bureau of Investigation
HR              Bureau of Human Resources
INR             Bureau of Intelligence and Research
OIG             Office of Inspector General




                            18
                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Appendix: Critical Human Intelligence-Threat Posts
12 FAM 263.3-2, (2) – (13)

In addition to the security awareness requirements cited in 12 FAM 262, Security Awareness and
Contact Reporting, the following additional instructions apply to posts that face a critical HUMINT
threat:
    (1) All executive branch agencies must review the proposed permanent assignment of all of their
          employees, contractors, and TDY personnel assigned in excess of 60 days accumulated in 1
          year (not necessarily consecutive) to determine their suitability;
    (2) DS/ICI/CI reviews background investigations and personnel files on all Department
          employees proposed for permanent assignment to HUMINT-threat posts. DS/ICI/CI
          evaluates security and suitability factors that could adversely affect suitability for
          assignment, in light of the heightened HUMINT threat, and any personal vulnerability
          potentially subject to HUMINT exploitation. DS/ICI/CI prepares a recommendation to the
          Director General of the Foreign Service (DGHR) with respect to an employee’s suitability
          for assignment to a HUMINT threat post after considering the following circumstances:
          (a) Whether the employee or an immediate family member has an immediate family member
              still residing in the proposed critical HUMINT threat country;
          (b) Whether the employee or an immediate family member has other family ties in any
              critical HUMINT threat post where a foreign intelligence service (FIS) could exploit
              familial bonds of affection; and
          (c) Whether the employee has family member(s) currently or recently employed by the
              critical HUMINT threat country’s military armed forces, intelligence or security service,
              police service, or ministry of foreign affairs;
    (3)     Whether the employee has a history of poor security practices (violations of 12 FAM 262
            and 12 FAM 550) that are recent and of a serious nature;
    (4)     Whether the employee is or has been a known target of interest to a FIS;
    (5)     Whether the employee has a history of aberrant behavior such as drug or alcohol abuse or
            criminal misconduct;
    (6)     Whether the employee has demonstrated emotional instability (as determined by the Office
            of Medical Services (MED));
    (7)     Whether the employee has exhibited financial or fiscal management irresponsibility that
            interferes with his or her performance of duty;
    (8)     Whether a past investigation concerning the employee documents a serious allegation
            concerning misconduct, suitability, or professional ethics that could be exploited by a FIS;
    (9)     Whether the employee has had more than one previous assignment to the same critical
            HUMINT threat post;
    (10) Whether the employee has made an unauthorized disclosure of sensitive or classified
            information;
    (11) Whether the employee or close family member has demonstrated loyalty to the proposed
            critical HUMINT threat country of assignment (i.e., previously employed with the FIS or
            ministry of foreign affairs);
    (12) Whether the employee has had romantic involvement with citizen(s) of the proposed critical
            HUMINT threat country of assignment.
    (13) The DGHR may accept or reject the recommendation made by DS for the proposed
            assignment to a critical HUMINT threat post. Upon request, DS must provide any
            pertinent information regarding the recommendation to the DGHR;

                                          19
                              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
